No. 19-1039
IN THE

Oupreme Court of the ainiteb ikateo
PENNEAST PIPELINE COMPANY, LLC,
Petitioner,
v.
STATE OF NEW JERSEY, et al,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit

BRIEF AMICUS CURIAE OF COLUMBIA GAS
TRANSMISSION, LLC IN SUPPORT OF
PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,954 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 23, 2020.

Colin Casey Haan
Wilson-Epes Printing Co., Inc.

